CERTIFICATE OF WORD COUNT
NO. TBD
Colin Masseau and Emily Mackenzie,
Petitioners,
v.
Guy Henning, Brickkicker/GDM Home Services, LLC,
Respondents.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the COLIN MASSEAU AND
EMILY MACKENZIE PETITION FOR WRIT OF CERTIORARI contains 6537 words, including the parts of the
brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
May 14, 2021

SCP Tracking: Nuovo-401 Water Tower Circle, Suite 101-Cover White

